No. 20-1057

IN THE

Supreme Court of the United States
ORACLE AMERICA, INC.,
Petitioner,
v.
UNITED STATES AND AMAZON WEB SERVICES, INC.,
Respondents.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Federal Circuit
BRIEF IN OPPOSITION
MARK A. PERRY
DANIEL R. FORMAN
Counsel of Record
ROBERT J. SNECKENBERG
KELLAM M. CONOVER
CROWELL & MORING LLP
GIBSON, DUNN & CRUTCHER LLP
1001 Pennsylvania Avenue, N.W. 1050 Connecticut Avenue, N.W.
Washington, D.C. 20036
Washington, D.C. 20004
(202) 955-8500
(202) 624-2504
MPerry@gibsondunn.com

Counsel for Respondent
Amazon Web Services, Inc.

QUESTIONS PRESENTED
1. Whether the court of appeals correctly concluded that, because petitioner could not meet the government’s requirements for participating in a procurement, petitioner could not challenge the structure of
that procurement.
2. Whether the court of appeals correctly concluded that the procurement was not prejudiced by
any of the personal conflicts of interest alleged by petitioner.

ii
RULE 29.6 STATEMENT
Respondent Amazon Web Services, Inc. states
that Amazon.com, Inc. is respondent’s parent
corporation and indirectly owns 100% of respondent’s
stock.

iii
ADDITIONAL RELATED PROCEEDINGS
In addition to the proceedings identified in the
petition, the following proceedings are directly related
to this case within the meaning of Rule 14.1(b)(iii):
• Amazon Web Servs., Inc. v. United States, No.
19-cv-1796 (Fed. Cl. filed Nov. 22, 2019)
• Oracle Am., Inc., B-416657 et al., 2018 CPD
¶ 391 (Comp. Gen. Nov. 14, 2018)

iv
TABLE OF CONTENTS
Page
BRIEF IN OPPOSITION ............................................ 1
STATEMENT .............................................................. 2
REASONS FOR DENYING THE PETITION ............ 6
I.

The Alleged Personal Conflicts Are
Intensely Fact-Bound. .................................... 7

II. The Alleged Personal Conflicts Are
Not Outcome-Determinative. ......................... 8
CONCLUSION .......................................................... 11

v
TABLE OF AUTHORITIES
Page(s)
Case
Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384 (1990) ................................................ 8
Other Authority
Inspector General, U.S. Dep’t of Defense,
Report on the Joint Enterprise Defense
Infrastructure (JEDI) Cloud Procurement,
No. DODIG-2020-079 (Apr. 2020) ..................... 6, 8

BRIEF IN OPPOSITION
Petitioner Oracle America, Inc. (“Oracle”), respondent Amazon Web Services, Inc. (“AWS”), and
two other companies submitted proposals in response
to the Department of Defense’s (“DoD’s”) $10 billion
Joint Enterprise Defense Infrastructure (“JEDI”) procurement to provide cloud computing services to the
armed forces. Oracle also filed the pre-award bid protest that is the subject of this petition and challenges
the structure of the procurement and asserts conflictof-interest allegations. While these challenges were
pending, DoD disqualified Oracle for failure to satisfy
DoD’s minimum requirements, described as “gate criteria.”
In this Court, Oracle raises two distinct objections
to the procurement: First, Oracle contends that the
government was required to structure the procurement to allow multiple vendors rather than a single
vendor. Second, Oracle contends that the procurement was tainted by the involvement of three government officials with alleged conflicts of interest.
On the first question presented, AWS took no position in the court of appeals and takes no position in
this Court. On the second question presented, it is
important to distinguish between personal conflicts of
interest involving government employees and organizational conflicts of interest involving companies.
Oracle’s petition addresses only the former: namely,
that former DoD employees allegedly had conflicts of
interest while employed at DoD. As explained below,
this case is a poor vehicle for addressing those allegations because they are highly fact-bound and are not
outcome-determinative in this case. Although Oracle

2
previously argued that AWS also had an organizational conflict of interest, that argument was rejected
below as unfounded and is not included in the petition. Because Oracle has abandoned that claim, AWS
does not address it further herein.
Oracle’s petition should be denied. *
STATEMENT
Oracle was eliminated from the JEDI competition
because it failed to meet DoD’s minimum requirements, known as gate criteria. After Oracle initially
filed with the Government Accountability Office
(“GAO”) a pre-award protest challenging, inter alia,
DoD’s minimum requirements, the GAO denied the
pre-award protest. Pet. App. 3a. Oracle then filed a
complaint in the Court of Federal Claims, which
granted judgment on the administrative record to the
government. Pet. App. 40a. The court of appeals affirmed. Pet. App. 1a.
1. The JEDI Cloud procurement is “directed to
the long-term provision of enterprise-wide cloud computing services to [DoD].” Pet. App. 2a. The JEDI
solicitation sought a single contractor to fulfill DoD’s
cloud requirements. Ibid. Prospective bidders were
required to satisfy seven threshold gate criteria: If an
offeror passed all seven gates, it would be eligible for
further evaluation; if an offeror failed even one gate,

AWS is currently protesting the final award decision at the
Court of Federal Claims, on the grounds that DoD’s technical
evaluation of proposals was flawed and that the Trump Administration improperly interfered in the award. This petition,
which arises from Oracle’s pre-award protest, is unrelated to
AWS’s post-award protest.

*

3
however, it would be ineligible for further evaluation
or award. Pet. App. 60a–61a.
2. Oracle filed a pre-award challenge with the
GAO, arguing that DoD’s justifications for awarding
the JEDI procurement to a single contractor were insufficient under applicable statute and regulation,
Pet. App. 3a, challenging certain of the solicitation’s
threshold gate criteria, ibid., and claiming that the
procurement was tainted by alleged conflicts of interest, Pet. App. 27a.
The GAO rejected Oracle’s protest. The GAO upheld the single-award structure and each of the challenged gate criteria, and held that the alleged personal conflicts could not have tainted the procurement
given that the solicitation reflected DoD’s actual
needs. See C.A.J.A. 105,900–105,918.
3. Oracle then filed a complaint in the Court of
Federal Claims. Pet. App. 3a. While that case was
pending, DoD excluded Oracle from the procurement
for its failure to satisfy multiple gate criteria: Specifically, DoD found that Oracle’s proposal failed to satisfy Gate 1.1, and Oracle conceded that it failed to satisfy Gate 1.2 “at the time of proposal.” Pet. App. 2a;
see Pet. App. 3a, 42a. DoD also completed an exhaustive investigation of potential conflicts of interest,
finding none that could have tainted the procurement.
Pet. App. 24a.
a. Oracle’s principal challenge was to the singleaward structure and Gates 1.1 and 1.2. Pet. App. 41a,
98a. Oracle’s conflicts challenges concerned three
DoD employees. The contracting officer (“CO”) had
found that none of these employees “tainted the JEDI
Cloud procurement.” Pet. App. 29a; see also Pet. App.
37a.

4
The first DoD employee, Deap Ubhi, “was involved
in marketing research activities for the JEDI Cloud
procurement” and “participated in drafting and editing some of the first documents shaping the procurement.” Pet. App. 28a. Oracle alleged that, in October
2017, Mr. Ubhi did not recuse himself from participating in the procurement until after beginning to negotiate his return to work at one of the offerors in the
procurement. Pet. App. 28a–29a. The CO found, however, that Mr. Ubhi “had not tainted the JEDI Cloud
procurement” because his “participation in the procurement was limited,” Pet. App. 29a, he “lacked the
technical expertise to substantively influence the
JEDI Cloud procurement,” and, “‘most importantly,
all the key decisions for the JEDI Cloud procurement,
[including] whether to award one or multiple contracts, were made well after [he] recused himself,’”
Pet. App. 78a.
The second DoD employee, Anthony DeMartino,
had limited involvement with the JEDI procurement,
participating only in “ministerial/administrative actions (such as scheduling meetings, editing/drafting
public relations,[ ] etc.).” Pet. App. 35a (alteration in
original). Oracle alleged that Mr. DeMartino had a
conflict of interest because he had been a consultant
for one of the offerors in the JEDI procurement. Ibid.
But the CO found that he “‘did not negatively impact
the integrity’ of the procurement” because he performed only “‘ministerial and perfunctory’” functions
and had a “limited role,” in which he “‘provided no input into the JEDI Cloud acquisition documents.’”
Ibid.
The third DoD employee, Victor Gavin, attended
one high-level meeting of the group “which was planning the JEDI Cloud procurement, to share the Navy’s

5
experience with cloud services,” and one other meeting in April 2018 “at which the attendees discussed
the Draft Acquisition Strategy for the JEDI Cloud procurement.” Pet. App. 37a. Oracle alleged that Mr.
Gavin attended the second meeting after receiving a
job offer from an offeror in the JEDI procurement.
Ibid. The CO found, however, that Mr. Gavin “did not
taint the [JEDI Cloud] procurement” because he “had
limited access to the Draft Acquisition Strategy, did
not furnish any input to that document, [and] did not
introduce bias into any of the meetings that he attended.” Ibid.
b. The Court of Federal Claims denied Oracle’s
protest and granted judgment in favor of the government on the administrative record. Pet. App. 42a.
After upholding Gate 1.2, the court found that because
Oracle failed to demonstrate that Gate 1.2 would have
been different under a multiple-award contract, any
error in DoD’s single-award determination was harmless. Pet. App. 97a.
The Court of Federal Claims also rejected each of
Oracle’s conflicts challenges. Pet. App. 107a–120a.
As to the three former DoD employees, the court found
that their involvement did not “taint” the overall procurement, detailing its fact findings with respect to
each employee. See Pet. App. 110a–116a.
4. Oracle appealed, and the Federal Circuit affirmed the Court of Federal Claims’ rejection of Oracle’s allegations. Pet. App. 1a–39a. The court of appeals held that the Court of Federal Claims was not
“clearly erroneous” in finding the single-award determination harmless error. Pet. App. 16a–18a. The
court of appeals further reviewed the record and
“agree[d] with the Claims Court that” each alleged
personal conflict of interest “had no effect on the JEDI

6
Cloud solicitation.” Pet. App. 27a; see also Pet. App.
28a–39a.
5. Oracle subsequently filed a petition for a writ
of certiorari in this Court seeking review of the court
of appeals’ rulings that (1) Oracle’s conceded failure of
Gate 1.2 precluded it from challenging the singleaward structure of the JEDI procurement and (2) no
alleged personal conflict of interest prejudiced Oracle
or otherwise tainted the procurement. Oracle did not
raise any allegations of organizational conflicts of interest—which had been found meritless by the contracting officer (see C.A.J.A. 158,709–158,716,
158,747–158,748), the Court of Federal Claims (see
Pet. App. 117a), and the Federal Circuit (see Pet. App.
35a, 39a), and had been separately rejected following
an investigation by the Office of the Inspector General, see Inspector General, U.S. Dep’t of Defense, Report on the Joint Enterprise Defense Infrastructure
(JEDI) Cloud Procurement, No. DODIG-2020-079
(“OIG Report”), at 128–168, 201–208 (Apr. 2020).
REASONS FOR DENYING THE PETITION
As noted at the outset, AWS takes no position on
the first question presented—i.e., whether the procurement should have been structured differently.
With regard to the second question presented—i.e.,
whether the court of appeals correctly concluded the
procurement was not prejudiced by the personal conflicts of interest of three DoD employees—this case is
a poor vehicle for deciding that issue. The alleged personal conflicts of interest (which concern the actions
of DoD employees, not the actions of AWS) are highly
fact-bound and had no effect on Oracle’s exclusion
from the competitive range. Indeed, the DoD, the
GAO, the Court of Federal Claims, and the Federal

7
Circuit each correctly concluded the alleged personal
conflicts could not have affected the procurement.
Accordingly, the petition for a writ of certiorari should
be denied.
I.

THE ALLEGED PERSONAL
INTENSELY FACT-BOUND.

CONFLICTS

ARE

Reviewing the alleged personal conflicts in this
case would not provide helpful guidance in other
cases. Even Oracle acknowledges that, under the
proper inquiry into the impact of an alleged personal
conflict of interest, a court may need to engage in a
“materiality inquiry” “to decide whether a contract
has been tainted by” the conflict. Pet. 29. To call such
an inquiry fact-intensive—and hence of little value in
other cases—is an understatement.
Consider the CO’s inquiry in the first instance.
The CO interviewed eight government officials and reviewed thousands of pages of emails, Slack messages,
proposal materials, and affidavits. C.A.J.A. 158,704–
158,707. On the basis of this extensive inquiry, the
CO found that while Mr. Ubhi worked for DoD, his
“participation in the procurement was limited,”
Pet. App. 29a, that he “lacked the technical expertise
to substantively influence the JEDI Cloud procurement,” and that “‘most importantly, all the key decisions for the JEDI Cloud procurement, [including]
whether to award one or multiple contracts, were
made well after [he] recused himself,’” Pet. App. 78a
(emphasis added). The CO similarly found that Mr.
DeMartino performed only a “‘ministerial and perfunctory’” and “limited role,” in which he “‘provided no
input into the JEDI Cloud acquisition documents’”
and “‘did not negatively impact the integrity’ of the
procurement,” Pet. App. 35a, and that Mr. Gavin “had
limited access to the Draft Acquisition Strategy, did

8
not furnish any input to that document, [and] did not
introduce bias into any of the meetings that he attended,” Pet. App. 37a.
Or consider the 48 pages the Office of the Inspector General (“OIG”) spent discussing the alleged conflicts by these three former DoD employees. See OIG
Report at 128–168, 201–208. OIG’s Report—which
was based on an examination of “approximately 31.2
gigabytes of e-mails and 1.05 gigabytes of relevant
documents” and “more than 80 interviews,” id. at 4—
concluded that “Mr. Ubhi’s brief early involvement in
the JEDI Cloud Initiative was not substantial,” id. at
8, that Mr. Gavin’s “comments about acquisition strategy” at a single JEDI meeting “did not affect the JEDI
Cloud procurement or contract award,” id., and that
Mr. DeMartino had only “a limited role related to
JEDI that involved drafting cloud-related correspondence for the Deputy Secretary of Defense,” id. at 208.
This sort of highly fact-bound inquiry “is unlikely
to establish clear guidelines for lower courts; nor will
it clarify the underlying principles of law” for other
cases, Cooter & Gell v. Hartmarx Corp., 496 U.S. 384,
405 (1990), and, therefore, is not well-suited for this
Court’s review, see Sup. Ct. R. 10 (“A petition for a writ
of certiorari is rarely granted when the asserted error
consists of erroneous factual findings”).
II. THE ALLEGED PERSONAL CONFLICTS ARE NOT
OUTCOME-DETERMINATIVE.
This case is also a poor vehicle because the outcome of the procurement would have been the same—
i.e., Oracle would have been excluded from the competitive range for its conceded failure to satisfy Gate
1.2—regardless of whether its allegations related to

9
the personal conflicts of the DoD employees are accurate (they are not).
Oracle makes no argument that either Mr. Gavin
or Mr. DeMartino had any involvement in the development of Gate 1.2. And Oracle’s unsubstantiated assertion that Mr. Ubhi was involved in the development of Gate 1.2, see Reply Br. 10, is plainly wrong.
As the United States correctly sets forth, Gate 1.2 was
not added to the procurement until after March 2018,
whereas Mr. Ubhi had left DoD in November 2017—
several months before March 2018. Opp. 26 (citing
Pet. App. 69a, 114a–115a; C.A.J.A. 106,083–106,084).
Thus, none of the alleged personal conflicts could have
possibly affected the development of Gate 1.2—meaning Oracle would have been excluded for failure to satisfy Gate 1.2 regardless of those conflicts.
Oracle focuses primarily on whether Mr. “Ubhi’s
conduct was [ ]material to the single-award structure
of JEDI.” Pet. 33. But even if his conduct had been
material to the single-award structure (it was not), it
still would not have been material to the development
of Gate 1.2. In any event, the CO, the GAO, the Court
of Federal Claims, and the Federal Circuit all correctly concluded that Mr. Ubhi’s involvement was, in
fact, immaterial to the single-award structure. While
Oracle suggests that the courts below applied only
deferential review, that ignores that each court reviewed the extensive record and expressly agreed with
the CO’s conclusions.
The Court of Federal Claims, for example, reviewed “hundreds” of Slack messages and emails,
Pet. App. 78a & n.10, and agreed that “the conclusion
. . . that these individuals were bit players in the JEDI
Cloud project, is correct,” Pet. App. 109a (emphasis
added). That court explained that, because none of

10
the DoD employees at issue was among “the many
DoD offices [sic] and officials who had a role in the
structure of this procurement,” and because they did
not “develop[ ] or sign[ ] off on [any] challenged components of this procurement,” their involvement “d[id]
not taint the work of many other persons who had the
real control of the direction of the JEDI Cloud project.”
Pet. App. 109a.
After conducting its own review of the record, the
court of appeals likewise “agree[d] with the Claims
Court that the conflict of interest problems of those
three individuals had no effect on the JEDI Cloud solicitation.” Pet. App. 27a (emphasis added). With respect to Mr. Ubhi, for example, the court of appeals
explained that Oracle’s argument that the “no-impact
determination ‘runs counter to the evidence before the
agency’” has “no force,” as it “far outruns the limited
evidence Oracle cites to support it.” Pet. App. 33a.
Similarly, the court of appeals explained that none of
the evidence Oracle cited with respect to Mr. DeMartino “establish[ed] that [he] was significantly involved
in crafting the substance of the procurement.”
Pet. App. 36a. The court of appeals further noted that
“Mr. Gavin did not ‘assist in crafting the single award
determinations or the technical substance of the evaluation factors.’” Pet. App. 38a (quoting Pet. App.
110a).
In short, Oracle presents no recurring questions
of importance regarding its accusations of personal
conflicts of interest. (And, to reiterate, Oracle presents no questions at all in this Court regarding alleged organizational conflicts involving AWS.) Rather, the issues raised in Oracle’s petition are factbound challenges that were thoroughly explored and
resolved by the responsible officials, reviewed by the

11
lower courts, and correctly decided. Nothing that
transpired with respect to those DoD employees warrants this Court’s review.
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted.
MARK A. PERRY
DANIEL R. FORMAN
Counsel of Record
ROBERT J. SNECKENBERG
KELLAM M. CONOVER
GIBSON, DUNN & CRUTCHER LLP
CROWELL & MORING LLP
1001 Pennsylvania Avenue, N.W. 1050 Connecticut Avenue, N.W.
Washington, D.C. 20036
Washington, D.C. 20004
(202) 624-2504
(202) 955-8500
MPerry@gibsondunn.com

Counsel for Respondent
Amazon Web Services, Inc.

June 18, 2021

